David J. Zimmer
+1 617 570 1192
DZimmer@goodwinlaw.com

Goodwin Procter LLP
100 Northern Ave.
Boston, MA 02210
goodwinlaw.com
+1 617 570 1000

April 13, 2020

FEDERAL EXPRESS
Hon. Scott S. Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Barr v. Dai, No. 19-1155

Dear Mr. Harris:
I represent the respondent in the above-captioned case. The petition for a writ of certiorari was placed
on the docket on March 20, 2020. The response is currently due on April 20, 2020. I respectfully
request, under Rule 30.4 of the Rules of this Court, that the Court extend the time within which to file a
response to the petition to and including June 19, 2020.
An extension is necessary to provide counsel for respondent with adequate time to prepare and finalize
a response. I was scheduled to return from parental leave on April 6, 2020, but have been forced to
extend my leave until May 4, 2020, due to complications with my childcare arrangements caused by the
coronavirus pandemic. Moreover, upon my return I will be heavily engaged with the press of other
business, including other briefs before this Court and the courts of appeals that are due in May and
June.
Counsel for respondent does not oppose this extension.
Sincerely,

David J. Zimmer

cc:

Solicitor General Noel J. Francisco (by e-mail and U.S. mail)

